Audit Report




OIG-09-025
PRIVATE COLLECTION AGENCIES: Diversified Collection
Services, Inc., Needs to Improve Compliance with FMS’s Debt
Compromise Requirements
January 8, 2009




Office of
Inspector General
Department of the Treasury
Contents


Audit Report..................................................................................................... 1

    Background ................................................................................................. 2

    Finding and Recommendations ....................................................................... 3

        FMS Should Ensure Diversified’s Enhanced Compliance With PCA Contract
        Requirements and Policy for Debt Compromise............................................ 3

        Recommendations.................................................................................... 5

Appendices

    Appendix     1:      Objective, Scope, and Methodology ......................................... 7
    Appendix     2:      Results of Review—Individual Cases ....................................... 10
    Appendix     3:      Federal Debt Collection Laws, Regulations, and Guidance.......... 11
    Appendix     4:      Management Response ......................................................... 12
    Appendix     5:      Major Contributors to This Report ........................................... 14
    Appendix     6:      Report Distribution................................................................ 15

Abbreviations

    Diversified          Diversified Collection Services, Inc. (of Lathrop, CA)
    DMS                  Debt Management Services
    FMS                  Financial Management Service
    OIG                  Office of Inspector General
    PCA                  private collection agency
    TOP                  Treasury Offset Program
    Treasury             Department of the Treasury




                         Diversified Needs to Improve Compliance with FMS’s
                         Debt Compromise Requirements (OIG-09-025)                                           Page i
This Page Intentionally Left Blank.
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General




                      Judith R. Tillman
                      Commissioner
                      Financial Management Service

                      We audited compliance by Diversified Collection Services, Inc.
                      (Diversified), a private collection agency (PCA) under contract with
                      the Financial Management Service (FMS), with requirements for
                      debt compromise.1 Our objective was to determine, for
                      compromises on delinquent federal nontax debt, whether
                      Diversified is

                      1. following PCA contract requirements, including (a) attempting
                         to collect the full amount due before considering a compromise
                         and (b) compromising at authorized levels; and

                      2. documenting each compromise adequately, providing proper
                         justification, and retaining evidence for the required period.

                      Our audit of Diversified is part of a series of planned audits of
                      PCAs and FMS’s oversight of debt compromise. Appendix 1
                      contains a description of our objective, scope, and methodology.

                      In brief, we found that Diversified was not following some PCA
                      contract requirements and FMS policy, including documentation
                      provisions for debt compromise. We are making two
                      recommendations to address these matters.




1
 A compromise plan is a payment agreement that allows the debtor to satisfy a debt by paying an
amount less than the total balance due, typically in a single payment.


                      Diversified Needs to Improve Compliance with FMS’s
                      Debt Compromise Requirements (OIG-09-025)                               Page 1
Background

             As the federal government’s financial manager, FMS implements
             the government’s delinquent debt program, collecting an annual
             average of more than $3 billion in delinquent debt over the last
             4 fiscal years through two main activities, the Treasury Offset
             Program (TOP) and the Cross-Servicing Program.

             Through TOP, delinquent debtor records referred by federal
             program agencies and states are matched against files for federal
             payments, such as income tax refunds, federal employment salary
             payments, and Social Security benefit payments. When a match
             occurs, the payment is intercepted and offset up to the amount of
             the debt.

             Cross-servicing is the centralized debt collection process for
             managing delinquent debts referred from federal program agencies
             through a variety of debt collection mechanisms, such as issuing
             demand letters, executing repayment agreements, referring
             accounts to TOP for administrative offset, referring debts to the
             PCAs, and reporting debts to credit bureaus.

             The FMS Debt Management Services (DMS) provides federal
             agencies with debt collection and management services. DMS
             leads the development and implementation of governmentwide
             debt management policies. It accomplishes its mission of improving
             the quality of the federal government's financial management in
             part by increasing the collection of delinquent debt owed to the
             federal government and by providing debt management services to
             all federal agencies.

             Once DMS determines that debtors cannot be located or are
             unwilling to resolve debts in an acceptable manner, the debts may
             be sent to the PCAs, which are private sector companies that
             specialize in collecting delinquent debt. PCAs attempt to find and
             contact debtors by searching various databases, making telephone
             calls, and sending collection letters. Once debtors are located and
             contacted, the PCAs encourage them to satisfy their debts.

             On March 12, 2007, DMS awarded a Treasury debt collection
             contract to Diversified, to increase the recovery of, and to resolve,

             Diversified Needs to Improve Compliance with FMS’s
             Debt Compromise Requirements (OIG-09-025)                       Page 2
                       nontax federal debts.2 The contract is a renewable 1-year contract
                       with four 1-year options available. Diversified also provided debt
                       collection services under a prior contract with FMS.

                       For the 12 months ended January 31, 2008, FMS referred
                       $777 million to Diversified, which collected $18 million and
                       administratively resolved $63 million. During the same period,
                       Diversified processed 103 compromise agreements for which the
                       forgiven amount was in excess of $2,000. The total amount
                       forgiven for the 103 compromise agreements was $1.7 million.

                       Debt collection efforts are governed by various federal and state
                       laws, including the Debt Collection Improvement Act of 1996 and
                       the Federal Claims Collection Standards. Appendix 3 contains a
                       brief summary of federal debt collection laws, regulations, and
                       guidance. DMS’s Private Collection Division monitors PCA
                       activities.

Finding and Recommendations

                       FMS Should Ensure Diversified’s Enhanced Compliance
                       With PCA Contract Requirements and Policy for Debt
                       Compromise

                       Diversified was not following some PCA contract requirements and
                       FMS policy, including documentation provisions for debt
                       compromise, as discussed below. Appendix 2 provides a summary
                       of our results on a case-by-case basis for the 14 cases in our
                       sample, randomly selected from a universe of the 103 compromise
                       agreements that had an active status during the audit period
                       and had amounts forgiven greater than $2,000.




2
 A debt may be administratively resolved for a variety of reasons. For example, collection efforts may
be discontinued because of a debtor’s death, disability, or bankruptcy or because a debtor entity has
gone out of business. A debt may also be resolved if the debtor pays or otherwise satisfies the
delinquent debt in full, pays the amount of a compromise reached, or enters into a repayment
agreement under terms acceptable to the creditor agency.

                       Diversified Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-09-025)                                  Page 3
                       Inadequate Documentation of Steps in Collection Process

                       Before compromising a debt, the contract requires a PCA to take
                       the following steps, in order: (1) attempt to collect the full amount
                       in one payment, (2) attempt to collect the full amount in multiple
                       payments, and (3) attempt to collect a partial payment amount in
                       one or multiple payments.3 The PCA is also required to include in
                       its system a separate justification for being unable to collect in
                       accordance with each applicable step. If the PCA is unsuccessful in
                       these efforts, it may then attempt to negotiate a compromise
                       payment amount with the debtor.

                       In all 14 of the debt compromise cases we reviewed, Diversified
                       did not document step 3 (attempt to collect a partial payment) in
                       accordance with contract requirements. Without documentary
                       evidence of its efforts to establish partial payment agreements
                       instead of compromise agreements in these cases, Diversified has
                       not provided assurance to FMS that the $238,000 in compromised
                       debt should have been forgiven. In addition, Diversified did not
                       document steps 1 and 2 in one case until after the decision to
                       compromise had been made.

                       Without proper documentation by a PCA, a reviewer would not be
                       able to determine whether the PCA adhered to the requirements of
                       the contract and acted in the best interests of the government.

                       In a written response to this finding, Diversified agreed with the
                       specific findings in step 3 (attempt to collect a partial payment
                       amount in one or multiple payments) as noted in appendix 2.
                       Additional information provided by Diversified for the case where
                       we found that documentation was not adequate for the other two
                       steps did not change our finding. As discussed earlier, the debt
                       collector’s notes should include documentation of each step
                       addressed prior to reaching a compromise agreement.




3
  In a partial payment agreement, the government suspends active collection while the debtor makes
payments toward the balance due. Unlike a debt compromise, a partial payment agreement does not
release the debtor's obligation to pay the full balance of the debt; the debt will remain in TOP so that
the debtor's federal payments may be offset and applied to the debt balance.

                       Diversified Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-09-025)                                     Page 4
Missing Compromise Agreement Letter

The contract states that, after reaching an agreement with the
debtor, the PCA is to send a DMS-approved compromise
agreement letter to the debtor confirming the payment arrangement
to which the debtor has agreed.

The file for 1 of the 14 Diversified cases we examined lacked a
compromise agreement letter. There was no indication in the
collector’s notes from Diversified’s system that a letter had been
sent to the debtor. As a result, the debtor did not have
documentation confirming the payment arrangement and it would
be difficult for Diversified to settle any dispute that might arise.
Diversified acknowledged that it did not send a compromise
agreement letter to the debtor and stated that this was an error on
its part.

Recommendations

We recommend that FMS take action to ensure that Diversified

1. conducts additional training or takes other corrective action to
   ensure that its employees properly document the steps taken
   prior to compromise, and
2. sends and retains copies of compromise agreement letters in
   each case where a compromise is reached.

Management Response

FMS concurred with our recommendations. The DMS Private
Collection Division held a Debt Collection Forum for representatives
of each of the five PCAs under the current contract, including
Diversified. Payment agreement standards and documentation
requirements were a major focus. DMS plans to verify that each
PCA has conducted additional training and may travel to PCA sites
to train collection staff. In addition, as part of its annual
compliance reviews, FMS will continue to review PCA files to
ensure that letters detailing the terms of the compromise
agreements were sent to the debtors.




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)                       Page 5
OIG Comment

We believe that the actions taken or planned by FMS address the
intent of the recommendations.

                                *******

We appreciate the courtesies and cooperation provided to our staff.
If you wish to discuss this report, you may contact me at
(202) 927-6512 or Maria V. Carmona, Audit Manager,
at (202) 927-6345.




Michael J. Maloney
Director, Fiscal Service Audits




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)                     Page 6
                      Appendix 1
                      Objective, Scope, and Methodology




                      Our audit objective was to determine if, for compromises on
                      delinquent federal nontax debt, private collection agencies (PCA)
                      under contract with the Financial Management Service (FMS) were

                      1. following PCA contract requirements, including (a) attempting
                         to collect the full amount due before considering a compromise
                         and (b) compromising at authorized levels; and

                      2. documenting each compromise adequately, providing proper
                         justification, and retaining evidence for the required period.

                      This report provides the results of our review for Diversified
                      Collection Services, Inc. (Diversified), one of the PCAs with which
                      FMS has contracted for debt collection services. We previously
                      issued reports on two PCAs4 and plan to report on other PCAs and
                      FMS’s administration of the program at a later date.

                      We began our fieldwork for the overall audit in February 2008 and
                      completed it in June 2008. Our work was performed at the FMS’s
                      offices in Washington, DC. This included reviewing Diversified
                      records that were sent to FMS.

                      To accomplish our objective, we reviewed applicable laws and
                      regulations. We also considered policy guidance given to the PCAs
                      by FMS. This included both current and prior versions of PCA
                      contract documents and FMS policy issuances, such as the Private
                      Collection Agency Policy & Procedures Manual and technical
                      bulletins.

                      We considered how FMS monitors PCA activity, reviewing
                      the compliance checklists completed by FMS and supporting
                      documentation obtained by FMS as it oversees the PCAs. We
                      also reviewed the most recent compliance report for each of the
                      PCAs under the prior contract.5

4
 The two reports, issued on September 26, 2008, are “Pioneer Credit Recovery, Inc., Needs to Improve
Compliance with FMS’s Debt Compromise Requirements,” OIG-08-043, and “Linebarger, Goggan,
Blair & Sampson, LLP, Needs to Improve Compliance with FMS’s Debt Compromise Requirements,”
OIG-08-044.
5
 FMS compliance reviews under the current contract began in May 2008. The final compliance review
under the prior contract was completed in 2006, with no reviews done in 2007.

                      Diversified Needs to Improve Compliance with FMS’s
                      Debt Compromise Requirements (OIG-09-025)                               Page 7
                       Appendix 1
                       Objective, Scope, and Methodology




                       We interviewed FMS staff in the Debt Management Services
                       Private Collection Division, including the contracting officer’s
                       technical representative for the PCAs.

                       We also evaluated computer-generated data files on debt
                       compromises from the FedDebt system, which is the current cross-
                       servicing system. FedDebt is a Web-based application used to
                       create and update debt and debtor information and monitor
                       financial transactions.

                       We audited a statistical sample of debt compromises under both
                       the prior and current FMS contracts with Diversified. The sample of
                       14 debt compromises was randomly generated from a universe of
                       103 compromise agreements negotiated by Diversified. The
                       103 agreements all had an active status during the audit period
                       and had amounts forgiven greater than $2,000.6 These agreements
                       were posted to the FedDebt system from February 2007 through
                       January 2008, the most recent 1-year period available at the time
                       that we requested the automated data. The following parameters
                       were used to determine the size of the sample: 95 percent
                       confidence level, 3.5 percent expected error rate, and
                       ±3.5 percent sample precision.

                       For the sample, we examined Diversified’s documentation for each
                       compromise agreement to determine whether (1) required
                       collections efforts were followed before compromise was
                       negotiated, (2) the compromise amount was within authorized
                       limits, and (3) required comprise agreement letters were sent to the
                       debtors. We also interviewed Diversified officials.

                       We conducted this performance audit in accordance with generally
                       accepted government auditing standards. Those standards require
                       that we plan and perform the audit to obtain sufficient, appropriate
                       evidence to provide a reasonable basis for our findings and
                       conclusions based on our audit objectives. We believe that the


6
 The amount forgiven included the outstanding principal, interest, administrative charges and penalties
at the time each agreement became active, and potential PCA and DMS fees, as well as potential
PCA bonus charges, less the amount to be paid by the debtor. Amounts forgiven less than or equal
to $2,000 were considered immaterial for this audit.

                       Diversified Needs to Improve Compliance with FMS’s
                       Debt Compromise Requirements (OIG-09-025)                                  Page 8
Appendix 1
Objective, Scope, and Methodology




evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)                     Page 9
                    Appendix 2
                    Results of Review—Individual Cases




                                                                            A                     B

                                                                         Inadequate
               Outstanding                                             documentation
               balance at                                                                   Compromise
               date of        Compromise    Amount              Step      Step    Step      letter not in
Case Ref. a    compromise     amount        forgiven            1b         2      3         file
A                     5,733         3,200               2,533                          X
B                    50,721        19,700              31,021                          X
C                    20,086         7,801              12,285                          X
D                  112,750         65,000              47,750                          X
E                    22,526        14,600               7,926                          X
F                    43,089        20,000              23,089                          X         X
G                     6,965         3,840               3,125                          X
H                     9,175         5,900               3,275                          X


I                    31,577        16,000              15,577                          X
J                    30,216        12,554              17,662     X         X          X
K                     5,902         3,500               2,402                          X
L                    99,875        50,000              49,875                          X
M                     5,120         2,600               2,520                          X
N                    37,575        18,788              18,787                          X
       Total      $481,310       $243,483         $237,827        1         1          14         1


    Notes:

                    a. Cases A-H were under the prior contract; cases I-N under the
                       current contract.

                    b. Before compromising a debt, the contract requires a PCA to
                       take the following three steps, in order:

                              Step 1. Attempt to collect the full amount in one payment.

                              Step 2. Attempt to collect the full amount in multiple
                                      payments.

                              Step 3. Attempt to collect a partial payment amount in one
                                      or multiple payments.




                    Diversified Needs to Improve Compliance with FMS’s
                    Debt Compromise Requirements (OIG-09-025)                                               Page 10
Appendix 3
Federal Debt Collection Laws, Regulations, and Guidance




The following are brief statements of the purpose of selected
federal debt collection laws, regulations, and guidance:

Debt Collection Improvement Act of 1996

To centralize the governmentwide collection of delinquent debt and
give Treasury significant new responsibilities in this area and to
require that agencies take prompt action to recover debts and
transfer all nontax debts delinquent more than 180 days to
Treasury for administrative offset and cross-servicing.

Fair Debt Collection Practices Act

To eliminate abusive debt collection practices by debt collectors, to
ensure that debt collectors who refrain from using abusive debt
collection practices are not competitively disadvantaged, and to
promote consistent state action to protect consumers against debt
collection abuses.

Federal Claims Collection Act and Standards

To set administrative procedures with respect to collection of debts
owed to the United States, including the criteria for accepting
installment payments and compromise agreements.

Privacy Act

To restrict the disclosure of personal information about individuals
and govern the handling of such information by the federal
government and its contractors.

OMB Circular A-129–Policies for Federal Credit Programs and
Nontax Receivables

To prescribe policies and procedures for justifying, designing, and
managing federal credit programs and for collecting nontax
receivables.




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)                       Page 11
Appendix 4
Management Response




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)            Page 12
Appendix 4
Management Response




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)            Page 13
Appendix 5
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Maria V. Carmona, Audit Manager
Kenneth G. Dion, Audit Manager
Horace A. Bryan, Auditor
Gerald H. Kelly, Auditor
Myung G. Han, Management Analyst
Jenny Hu, Referencer
Gerald J. Steere, Referencer




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)             Page 14
Appendix 6
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Management Service

Assistant Commissioner, Debt Management Services
Director, Finance and Internal Control Division
Manager, Internal Control Branch (OIG Liaison)

Office of Management and Budget

OIG Budget Examiner




Diversified Needs to Improve Compliance with FMS’s
Debt Compromise Requirements (OIG-09-025)                 Page 15
